HHS/OIG, Audit -"Commonwealth of Virginia, Efforts to Account For and Monitor Sub-Recipients' Use of Public Health Preparedness and Response for Bioterrorism Program Funds,"(A-03-03-00383)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Commonwealth of Virginia, Efforts to Account For and Monitor Sub-Recipients' Use of Public Health Preparedness
and Response for Bioterrorism Program Funds," (A-03-03-00383)
October 17, 2003
Complete
Text of Report is available in PDF format (255 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Virginia Department of Health (State agency) properly recorded,
summarized and reported bioterrorism preparedness transactions by specific focus area designated in the cooperative agreements
and whether the State agency has established controls and procedures to monitor sub-recipient expenditures of Centers for
Disease Control and Prevention funds. We found that the State agency generally accounted for Program funds in accordance
with the terms and conditions of the cooperative agreement and applicable departmental regulations and guidelines.  The
State agency had a system to track and monitor sub-recipient activities; such as, application and award processes, grant
conditions, ongoing fiscal activities, and reporting.  At the time of our review, the State agency had only one sub-recipient,
the Division of Consolidated Laboratory Services (Consolidated), a division of the Department of General Services, another
Virginia State agency. In its memorandum of agreement with Consolidated, the State agency required
no written reports.